U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

January 21, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Jevonne Martell Coleman v. United States of America,
S.Ct. No. 20-6714

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on December
18, 2020, and placed on the docket on December 29, 2020. The government’s response is due on
January 28, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including March 1, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Jeffrey B. Wall
Acting Solicitor General
cc: See Attached Service List

20-6714
COLEMAN, JEVONNE MARTELL
USA

DIANE HELPHREY
101 WEST 2ND STREET
SUITE 401
DAVENPORT, IA 52801
DIANE_HELPHREY@FD.ORG

